<html>
<title> - FIRST HEARING IN SERIES ON MOVING AMERICA'S FAMILIES FORWARD</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      FIRST HEARING IN SERIES ON
                   MOVING AMERICA'S FAMILIES FORWARD

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2015

                               __________

                          Serial No. 114-HR01

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
21-281                          WASHINGTON : 2016                        
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>  





                      COMMITTEE ON WAYS AND MEANS

                     PAUL RYAN, Wisconsin, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California              JIM MCDERMOTT, Washington
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
CHARLES W. BOUSTANY, JR., Louisiana  XAVIER BECERRA, California
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
TOM PRICE, Georgia                   MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
AARON SCHOCK, Illinois               RON KIND, Wisconsin
LYNN JENKINS, Kansas                 BILL PASCRELL, JR., New Jersey
ERIK PAULSEN, Minnesota              JOSEPH CROWLEY, New York
KENNY MARCHANT, Texas                DANNY DAVIS, Illinois
DIANE BLACK, Tennessee               LINDA SANCHEZ, California
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri

                       Joyce Myer, Staff Director

         Janice Mays, Minority Chief Counsel and Staff Director

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

             CHARLES W. BOUSTANY, JR., Louisiana, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
TOM REED, New York                   JOHN LEWIS, Georgia
KRISTI NOEM, South Dakota            JOSEPH CROWLEY, New York
PAT MEEHAN, Pennsylvania             DANNY DAVIS, Illinois
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri

                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 11, 2015 announcing the hearing.............     2

                               WITNESSES

Frances Deviney, Ph.D., Associate Director, Center for Public 
  Policy Priorities..............................................    46
Ron Haskins, Senior Fellow, Economic Studies, The Brookings 
  Institution....................................................     7
W. Bradford Wilcox, Visiting Scholar, American Enterprise 
  Institute......................................................    35
Scott Winship, Walter B. Wriston Fellow, Manhattan Institute for 
  Policy Research................................................    16

                       SUBMISSION FOR THE RECORD

National Center for Policy Analysis (NCPA).......................    76


 
                      FIRST HEARING IN SERIES ON
                   MOVING AMERICA'S FAMILIES FORWARD

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room B-318, Rayburn House Office Building, Hon. Charles 
Boustany [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

                  FROM THE COMMITTEE ON WAYS AND MEANS
                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Wednesday, February 4, 2015
No. HR-01

              Chairman Boustany Announces First Hearing in

              Series on Moving America's Families Forward

    Congressman Charles Boustany (R-LA), Chairman of the Subcommittee 
on Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing series on moving America's 
families forward. The first hearing will focus on Challenges Facing 
Low-Income Individuals and Families in Today's Economy. Subsequent 
hearings are expected to focus on engaging low-income adults in work 
and training, coordinating benefit programs, reviewing lessons learned 
in other countries, and using evidence to ensure programs help people 
in need experience real progress. The hearing will take place 
immediately following the Human Resources Organizational Meeting at 
2:00 p.m. on Wednesday, February 11, 2015, in room B-318 of the Rayburn 
House Office Building.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include experts on how the current labor market affects 
low-income individuals and families, the nature and dynamics of poverty 
in recent years, and the shifting structure of households and families 
in the United States. However, any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Committee for inclusion in the printed record of 
the hearing.
      

BACKGROUND:

      
    While employment growth has resumed, our Nation's economy isn't 
working as well as it should to help individuals and families escape 
poverty and move up the economic ladder. Too many Americans are 
struggling to find work, and incomes aren't growing as they should. 
Poverty rates also remain high, even though the recession ended 5\1/2\ 
years ago. In each year since 2009, one out of five children lived in 
families with income below the poverty line. Changes in family dynamics 
and household structure have also had significant impacts on the 
economic situation of families across the country. Recent surveys have 
shown that many have even lost confidence in their ability to achieve 
the American Dream.
      
    In announcing the hearing, Chairman Boustany stated, ``Even though 
this is technically the sixth year of the current `recovery,' far too 
many Americans are struggling to get ahead in today's economy. With 
poverty rates stuck at historically high levels and far too many unable 
to find work, we need to make sure we're doing all we can to help 
people get ahead. But before we try to address these problems, we need 
to make sure we fully understand them. That's why we're holding this 
hearing--to present a full picture of the challenges facing low-income 
individuals and families today. This hearing will also lay the 
groundwork for our efforts to fix the problem, providing us with the 
information we need to help more people find jobs, escape poverty, and 
move up the economic ladder.''
      

FOCUS OF THE HEARING:

      
    This hearing will focus on current labor market trends and their 
impact on low-income families and individuals, trends in poverty in 
recent years, how changing family and household dynamics impact 
economic wellbeing, and how Federal policy may influence these issues.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Tuesday, February 25, 2015. For questions, or if you encounter 
technical problems, please call (202) 225-3625 or (202) 225-2610.

      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.

      
    1. All submissions and supplementary materials must be submitted in 
a single document via email, provided in Word format and must not 
exceed a total of 10 pages. Witnesses and submitters are advised that 
the Committee relies on electronic submissions for printing the 
official hearing record.

      
    2. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. The name, 
company, address, telephone, and fax numbers of each witness must be 
included in the body of the email. Please exclude any personal 
identifiable information in the attached submission.

      
    3. Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.

      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

      
    Note: All Committee advisories and news releases are available at 
http://www.waysandmeans.house.gov/.

                                 -------

    Chairman BOUSTANY. We will call this hearing to order now 
and welcome everybody to the Subcommittee and I will welcome 
our witnesses here shortly.
    Our first hearing this year is on the challenges facing 
low-income individuals and families in today's economy. Our 
basic purpose as a Subcommittee, our purpose stated in the 
Subcommittee's very title is to promote the human resources of 
this country. Those human resources, those individuals, that 
untapped potential, in many instances, are really today's 
workers and their children and the workforce of tomorrow.
    Stretching back to the 1930s and accelerating into the 
1960s, the Federal Government has operated an ever-growing 
arsenal of programs that provide benefits designed in some way 
to help low-income families with children as well as unemployed 
workers to move forward. The bad news--and on this, I think 
there is bipartisan agreement--is that those programs are not 
working as effectively as we would like, especially given the 
realities of today's economy.
    And even though the pace has picked up lately, the current 
jobs recovery has been the slowest in recorded history. It has 
left far too many people unemployed, stuck in poverty, year 
after year. Incomes fell dramatically during the recession and 
really have not bounced back. Millions collected 2 years of 
unemployment benefits without finding a new job. Many simply 
left the workforce. Others transitioned into long-term 
disability benefits or food stamps or both, and the sad result 
has been a majority of Americans now believe the American dream 
of hard work and getting ahead is impossible to achieve. And 
younger workers, the background of our workforce for the next 
40 years, are the most pessimistic about their chances.
    We also know American families are experiencing major 
stress. The stress is not just economic stress, but stress on 
the very fabric of family life as well. Declining marriage 
rates, rising shares of children born to single parents, and an 
increasing number of children spending years raised in single-
parent homes adds to that stress and to the hurdles that must 
be overcome by programs designed to help them.
    Twenty years ago this Subcommittee faced a similar set of 
challenges in crafting what became the landmark 1996 welfare 
reform law. And in fact, by this point in February of 1995, 
this Subcommittee had already held an amazing eight hearings in 
less than a month. This documents some of that early work. So I 
am afraid we are a little bit behind, but we will catch up 
hopefully and move forward as the Committee continues to have 
hearings to address these problems.
    But back then, the late Subcommittee Chairman, the late 
Clay Shaw of Florida, sat in this chair and said Members of 
this Committee were on a rescue mission to save poor families. 
And in many respects, it worked. After 1996, the number of low-
income parents collecting welfare checks fell dramatically as 
millions left welfare for work. Poverty fell to record lows for 
key groups as work and earnings rose. But over time, the roles 
of other low-income benefit programs, especially those not 
subject to the 1996 reforms, expanded even faster, even when 
the economy was growing.
    And while the number of people participating in these 
benefit programs increased, poverty rates remained unchanged or 
even worsened. Clearly, the economy and this broader array of 
anti-poverty programs haven't been working as well as we would 
like to help all families move up the income ladder, and that 
is why this year we will engage in the first top-to-bottom 
review since 1996, of how Federal policies across the board can 
better support work, strengthen families, and move America 
forward.
    We will review our programs as well as their interaction 
with other key programs, like food stamps, housing, healthcare, 
so that we get a complete picture. We will cooperate with other 
subcommittees and committees on this. Subsequent hearings will 
explore how we could better engage low-income adults in work 
and training, what should we do to better coordinate benefits 
that families count on, what lessons may we learn from other 
countries, and how should we use evidence to ensure we are 
making a real difference, a tangible difference in people's 
lives.
    Our goal, consistent with the challenge set forth by 
Chairman Ryan last year, is not simply to cut programs or 
reduce spending; instead, it is to reform programs so that they 
create real ladders of opportunity so that families can climb 
to escape poverty and achieve the American dream. That is a big 
but essential goal for us to achieve if we want our families, 
and ultimately our country, to move forward.
    I am excited to work with everyone here, including our 
witnesses today as we get started.
    And with that, I would like to turn to Mr. Doggett for his 
opening statement.
    Mr. DOGGETT. Thank you so much, Mr. Chairman.
    With nearly 5 years of month after month continuous private 
sector job growth and with 3 million new jobs created in 2014 
alone, I believe we have made steady progress in overcoming the 
great recession set in motion by Wall Street fraud. While more 
and more attention in this Congress on both sides of the aisle 
focuses on what we can do for the middle class, we also need to 
be concerned with the many Americans who are just struggling to 
get up the first couple of rungs of that economic ladder to try 
to climb into the middle class.
    This Subcommittee, with its broad jurisdiction over many 
programs designed to provide opportunities for struggling 
families, should be a vital part of growing the middle class.
    Just one example, one of the issues we have dealt with in 
this Subcommittee is unemployed insurance. And in 2013, the 
last year on record, about 1.2 million people were not 
categorized as impoverished because they had unemployment 
insurance benefits to tide them over as they searched for work.
    The need for real, meaningful action is particularly 
evident in my home State of Texas. There, one out of every four 
children is below the poverty level, and about a third of all 
Texans live in the shadow of poverty, meaning that their income 
is less than twice the poverty threshold.
    I look forward to hearing from all of our witnesses, but 
particularly from Frances Deviney from the Center for Public 
Policy Priorities, who has provided objective, nonpartisan 
information on poverty in Texas and a range of social services 
there and across the country, and can comment on how some of 
the programs under our purview can help those in poverty.
    Our Subcommittee should be focusing on helping struggling 
families. Clearly, it is not enough to just throw money at the 
problem, as we so often hear. But neither is it a substitute, 
as is sometimes offered in this Committee, to merely throw 
words at the problem. Caring, soothing, empathetic words, but 
words and no meaningful legislative action.
    I believe there are four goals that are appropriate: First, 
support incentives that strike at the early seeds of poverty. 
Prevention, matters like the MIECHV or home visiting program 
that you referenced in your statement, the Protect Our Kids Act 
that we worked on in this Subcommittee, which had leadership 
from former Chair Dave Camp on. That commission on child abuse 
will have its recommendations, I think, later this year and 
provide us an opportunity to take a look at their findings.
    I think a second area is to increase efforts to help people 
gain the skills that they need to secure jobs that can provide 
a path for a better life. An example that we heard about last 
session, Project QUEST in San Antonio, which has an 86 percent 
job placement rate, is focused on helping poor people obtain 
living-wage jobs and get the training and education and 
matching them up with where there is a specific need in the 
labor force.
    A third area is to eliminate barriers to work. Certainly, 
one of the biggest of those barriers is affordable child care. 
The President talked about this in the State of the Union 
address. Less than 20 percent of the families federally 
eligible for child care assistance ever obtain any assistance.
    Finally, we need a reliable safety net for families that 
fall on hard times. In Texas, only one out of every 20 children 
living below the poverty line receive any direct TANF 
assistance. That is not temporary assistance for needy 
families; it is no assistance for most, all the time.
    Our experience since welfare reform, which I voted for 
myself in 1996, shows that while we have experienced some 
progress, too often TANF has meant less and less for fewer and 
fewer. I believe we need to have evidence-based programs, but 
we need to look at the evidence and I am pleased that you will 
be focusing on review of that welfare law, so that we can see 
what we can do to help people escape poverty through good work, 
good jobs.
    Mr. Chairman, I look forward to hearing from all of our 
witnesses and to continuing this discussion throughout this 
session of Congress.
    Thank you.
    Chairman BOUSTANY. Thank you, Mr. Doggett.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record.
    And I want to remind our witnesses, as is customary, we 
have received your written testimony, and I would ask you to 
restrict your oral statements to 5 minutes, give us a summary, 
so it will save ample time for questions. However, without 
objection, all the written testimony will be made part of the 
permanent record.
    And on our panel this afternoon we will be hearing from 
four very distinguished witnesses. First, we have Ron Haskins, 
Senior Fellow, Economic Studies at The Brookings Institution; 
Scott Winship, the Walter B. Wriston Fellow at the Manhattan 
Institute for Policy Research; third, W. Bradford Wilcox, 
Visiting Scholar from the American Enterprise Institute; and 
Frances Deviney, Associate Director, Center for Public Policy 
Priorities, from Texas. Right?
    VOICE. Yes.
    Chairman BOUSTANY. Welcome. Welcome to all four of you, and 
we look forward to each and every one of you providing some 
insights.
    So with that, Mr. Haskins, you will lead off. Thank you so 
much for being here. You may proceed with your testimony.

           STATEMENT OF RON HASKINS, SENIOR FELLOW, 
          ECONOMIC STUDIES, THE BROOKINGS INSTITUTION

    Mr. HASKINS. Mr. Chairman, and Mr. Doggett, Members of the 
Committee, it is a great privilege to be here. I think it is an 
honor to testify, and I am glad to be invited.
    I want to concentrate on one thing. I brought a PowerPoint 
that I think will make it clear. This summarizes my testimony 
in these few words: ``Low-wage work plus work support benefits 
reduce poverty.'' It has happened in the past and I am going to 
show you how much it has happened. Our poverty rate would be at 
least 50 percent higher than it is now if it weren't for these 
government benefits. So they are extremely effective.
    And I also want to point out, and I will conclude with this 
point as well, that this is a bipartisan approach. Why? Because 
Republicans favor work requirements. Half the Democrats in-
house when welfare reform passed also favored them because they 
voted for it and implemented work requirements. And Democrats 
like to make sure people are out of poverty. I think a lot of 
Republicans like that too, so it is supplemented with benefits.
    Here is how it works. First of all, I want to call the 
Subcommittee's attention to the fact that kids who are in 
female-headed families, as Brad will go into detail about, are 
five times or four times--it varies from year to year--as 
likely to be in poverty as kids in married couple families. We 
have experienced demographic for the last 40 years in the 
United States to increase poverty by putting more and more of 
our children in female-headed families where their poverty 
rates are four or five times as high. If we could stop that, we 
would make a lot more progress. We have made some progress 
despite it, but it is a big problem. So that is the first 
thing. If you can get kids out of female-headed families, and 
Brad will talk about this more.
    The second thing is the work part of the solution I am 
talking about. I think that this chart right here is one of the 
most surprising charts that we have had in public policy of the 
United States, having to do with social policy in the last 4 or 
5 decades. The top line is all single parents. I want to focus 
your attention for a minute on the bottom line. These are 
never-married mothers. They are the most disadvantaged, the 
least educated, the least likely to work especially before 
welfare reform.
    And I want to point out in the middle of the chart that 
huge increase. I don't think there is anything like that in the 
history of labor bureau statistics that shows this is roughly a 
40-percent increase in work over a 4-year period by this most 
disadvantaged group of low-income mothers. So in that sense, 
welfare reform was successful. There is some problems. I will 
get to those in just a minute.
    And now I want to show you the impact it had on poverty. 
This is really, I think, the bottom line. So first, this is 
life in the state of nature. No benefits. Only earnings. And as 
you can see, the poverty rate based only on earnings dropped 
very substantially there during the welfare reform period, 
started before, and we could talk about that if you want to.
    And then, I think primarily because of the economy, it 
increased, but I would urge you to look at the very last data 
point. We are still, we are still below where we were before 
welfare reform passed after the worst recession we have had 
since the Great Depression and also a recession in 2001.
    So I think this is a remarkable achievement. But we also 
subsidize the mothers' earnings, and here is how we do it: 
First, we do it with--I can't read the chart, but the first set 
of benefits is cash, and that includes earned income tax 
credit, SSI, and so forth. And as you can see, the poverty rate 
falls very substantially. It still follows the course of the 
economy and the course of employment because they are tied 
together, but it drops it very substantially.
    Now we give additional benefits, I think this is a food 
stamp benefit, and that also reduces the poverty rate. And then 
we add the earned income tax credit, the additional child tax 
credit and subtract taxes, so this is net of taxes. And the 
poverty rate still drops very substantially.
    And finally, there is a kind of a category of benefits that 
especially have to do with people that the mothers live with 
who earn money or other members of the family that earn money.
    And as you can see, we dropped the poverty rate by almost 
half here with this most disadvantaged group. And the most 
important point is, they have to work to get these benefits. 
They have to work to get them. So we have created a system in 
which to avoid poverty, you can't get out of poverty unless you 
work. On welfare benefits, hardly anybody, or their children, 
gets out of poverty. So to me that is a lesson. This system 
needs to be expanded and preserved.
    But it has some flaws, and I want to just mention those in 
closing. I am going to mention three things just very quickly. 
The first one is that I think we ought to have work 
requirements in other programs. We are about to embark on a 
demonstration with the food stamp program that I think will be 
terrific. We have had a lot of problems trying to get people on 
food stamps to work. I think we can do a much better job and 
the States are going to help them and figure out how to do it. 
They are going to have random assignment evaluations, and I 
strongly suggest the Committee follow this carefully because it 
is a very important step.
    Second thing, we know that there is some disconnected 
mothers, a term that researchers and advocates have used. They 
are not on welfare, they don't have a job, and some of them are 
worse off. Most of them are worse off. That is a problem. There 
have been a couple of experiments to try to figure out what to 
do about it. Nothing has worked very well. So I think that is 
something the Committee should tend to.
    And finally, I think we can do a lot more with work 
programs. When this Subcommittee and the full Committee passed 
the ARRA back in 2009, it had money--an emergency fund and 
States set up jobs and they supplied 260,000 jobs to low-income 
families. In the private sector and in the public sector. So 
that is a very promising thing. I strongly suggest you look 
into that.
    The bottom line is we have made a lot of progress. But we 
can make more.
    [The prepared statement of Mr. Haskins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 ---------
                                 
    Chairman BOUSTANY. Thank you.
    Mr. Winship, you are recognized.

STATEMENT OF SCOTT WINSHIP, WALTER B. WRISTON FELLOW, MANHATTAN 
                 INSTITUTE FOR POLICY RESEARCH

    Mr. WINSHIP. Thank you.
    Chairman Boustany, Ranking Member Doggett, Members of the 
Subcommittee, thank you for the opportunity to testify today.
    How to address the challenges facing low-income individuals 
and families is one of the most important questions facing 
policymakers today. To me, personally, I think it is the most 
important question.
    In my written testimony, I assess long- and short-term 
trends in the American labor market over the past 25 years. I 
discuss trends in employment, unemployment, and labor force 
participation between the business cycle peaks of 1989 and 
2007, to show that many of the challenges we face, not all, but 
many that we believe to be worsening are not.
    I also describe what has happened since the onset of the 
Great Recession in order to examine the recent departure from 
these longer-term trends. My written testimony includes a 
series of 24 fun charts displaying the trends that I will 
thankfully just summarize here.
    So, the highlights of my analyses are as follows: First, 
over the last 25 years, the enduring strength of the American 
economy, I think, shines through. In particular, there was no 
increase between 1989 and 2007 in the share of adults who are 
unemployed or in the share of workers who are working part time 
involuntarily. This is true for adults between the ages of 18 
and 24, those 25 to 54, and those aged 55 to 64, for both men 
and for women. Nor has employment fallen among women aged 25 to 
54 or among older men and women. These trends are shown in 
Figures 1A through 1F and 2A through 2F in my written 
testimony.
    Second, the share of adults under age 25 who are employed 
has fallen over time. But the decline is primarily explained by 
increasing school enrollment, and it is entirely explained by 
an increase in the share of adults in that age group who tell 
Federal surveyors when asked that they do not want a job, and 
that is in Figures 1A and 1B and Figures 4A and 4B.
    Third, the share of men between the ages of 25 and 54, 
prime-age workers, the share of those men who are employed has 
also fallen, again, driven by a fall in labor force 
participation. The drop in labor force participation is 
entirely explained, on the one hand, by increases in the share 
of men, who, again, say they do not want a job and the share 
who report that they are disabled. These are shown in Figures 
1C and 4C.
    Now, the prevalence of self-reported disability and its 
rise over the past 45 years does not accord with trends in 
physical or mental health, which have not worsened over time. 
While much of the increase in disability is due to demographic 
change, policy changes that have made it easier to qualify for 
Federal disability benefits have increased the number of 
working-age men outside the labor force.
    Fourth, as shown in Figures 3A through 3F, unemployment 
spells have grown longer even though the share of adults 
experiencing unemployment hasn't risen. Because relatively few 
people are unemployed, however, relatively few, and many of 
them are out of work for less than 3 months, the risk of 
experiencing long-term unemployment remains very small. So if 
you take the most disadvantaged group you see in the day, the 
young black men, they experienced a 16-point increase between 
1989 and 2007 in the share of unemployed who have been out of 
work for more than 26 weeks. But the increase in the share of 
young black men in the labor force, jobless or not, who are 
unemployed that long, was only from 1 to 4 percent.
    Okay. Fifth, the Great Recession worsened most indicators 
of labor market strengths for sure. Employment fell 
significantly, and has recovered only among older adults. 
Unemployment remains higher than in 2007, and labor force 
participation remains lower among adults under the age of 55.
    Involuntary part-time work has increased as a share of all 
part-time work. Full-time work has declined as a share of 
employment among younger workers and among men aged 25 to 54. 
And the long-term unemployed grew as a fraction of the jobless, 
and the share of adults outside the labor force who said that 
they wanted to work, has risen.
    The worst is behind us, however, as nearly all of these 
indicators began improving between 2009 and 2011. The exception 
is the labor force nonparticipation among men and women, aged 
25 to 54, which peaked in 2013 among women and probably in 2014 
among men.
    Turning quickly to policy solutions, I think efforts to 
revive business creation would ensure the replenishment of new 
firms who account for an outsize share of new jobs. And they 
might therefore lower the duration of jobless spells that we 
see.
    Experimentation through State and local pilot programs 
would allow for the testing and evaluation of safety net 
reforms to promote work and to support low-income families. And 
reforms to Federal disability programs could benefit those with 
marginal ailments, real ailments but marginal ones, who in past 
years would not have dropped out of the labor force, while at 
the same time helping those with serious impairments who want 
to work become better integrated into the workforce.
    In conclusion, I want to reiterate that we do face economic 
challenges as a Nation. Low-income individuals and families 
face more challenges than other Americans. Too many are hard 
pressed to make ends meet while their children enjoy too little 
upward mobility.
    But I think it is important to keep in mind that the 
ability of the U.S. economy to provide work for those who seek 
it has not diminished. I think, above all, we need to remember 
that.
    Thank you.
    [The prepared statement of Mr. Winship follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           

                                 ------
                                 
    Chairman BOUSTANY. Thank you.
    Mr. Wilcox, you are recognized.

  STATEMENT OF W. BRADFORD WILCOX, VISITING SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. WILCOX. Chairman Boustany, Ranking Member Doggett, and 
other distinguished Members of the Subcommittee, thank you for 
inviting me to participate today.
    In thinking about today's topic, the challenges facing 
lower-income families in our economy, let me be clear, I think 
economic factors, such as declines in the wages of less-
educated men, and social factors, for instance residential 
segregation, inhibit economic mobility, contribute to poverty 
and make family life more challenging for lower-income 
Americans.
    But the research also indicates the Nation's retreat from 
marriage is inhibiting economic mobility, making poverty more 
common, and driving up inequality. Where we are now we are 
witnessing a growing marriage divide. Where well-educated and 
affluent Americans enjoy comparatively stable, high-quality 
marriages, and lower-income Americans are less likely to 
benefit from the social and economic advantages associated with 
growing up within or being a member of a stable, married 
family.
    Today I am going to make three basic points about this 
retreat from marriage. First, I think we need to understand the 
demographic trends in play. And, in Figures 1 through 3 in my 
testimony, I outline these basic trends. In Figure 1, for 
instance, I show that marriage is in retreat across the board, 
but still today a majority of college-educated Americans in 
midlife are in their first marriage. By contrast, less than a 
majority of less-educated Americans are in a first marriage in 
midlife today in the United States.
    The trends in Figure 2 in nonmarital childbearing are even 
more dramatic. The figure shows, for instance, that less than 
one in ten college-educated moms are having their kids outside 
of marriage, or about one in two moms who don't have a college 
degree are having their kids outside of marriage. So clearly, 
there is a big class divide in nonmarital childbearing.
    And then the third figure shows, I think most importantly, 
that family and stability is on the rise among less-educated 
Americans but remains comparatively not a problem for college-
educated households. So kids who are being raised in lower-
income households are experiencing more family instability and 
more single parenthood. That is not true for college-educated 
Americans.
    The second question or point that I want to dwell on is, 
why does it matter that marriage is in retreat in this country? 
Well, it matters because it undercuts the American dream, it 
fuels poverty, and it drives up economic inequality. For kids, 
for children, we know that they are less likely to acquire the 
human capital they need to thrive in today's labor market. They 
are less likely to avoid major detours in young adulthood, 
things like a teen pregnancy or incarceration if they grow up 
outside an intact married family; and Figure 4 makes this 
point, I think, very clearly.
    And yet at the community level, we have seen from Harvard 
economist Raj Chetty that when it comes to poor kids' mobility, 
quote, ``The strongest and most robust predictor of mobility is 
the fraction of children from single parents,'' unquote, in a 
community. So there is clearly a link between mobility for our 
Nation's kids and being raised in a family in a community where 
the two-parent family is strong.
    And then for adults, my own research with Robert Lerman at 
the Urban Institute indicates that men tend to work harder, 
they work smarter, and they make more money if they are married 
compared to their single peers. They make about $16,000 more 
compared to their similarly-credentialed peers if they are 
married. And this benefits both themselves, of course, and a 
family of which they are a part of. So all this is one reason 
why poverty is markedly lower among both married Americans and 
their families.
    Now, in my testimony I talk about why marriage is in 
retreat, and I talk about both economic factors, which 
progressives tend to stress, which I think are accurate, as 
well as cultural and policy factors, which I think 
conservatives tend to stress and are actually also accurate to 
an important extent.
    But given all this, what can we do to renew marriage and 
bridge America's growing family divide? I have three brief 
comments on this.
    First, I think public policy should do no harm when it 
comes to marriage. And in my prepared testimony I detail some 
ways in which policymakers can eliminate or reduce marriage 
penalties in many of our means-tested policies.
    Second, I think public policy should explore ways to 
strengthen the economic foundations of middle- and lower-income 
family life in three ways: One, by increasing the child tax 
credit; two, by expanding the EITC for single adults; and 
three, by expanding and improving vocational education and 
apprenticeship programs, all of which would make men, 
especially lower-income men, more marriageable.
    Then third, I think that Federal and State governments 
operating in partnership with the private sector should support 
a public campaign around what Ron Haskins and Belle Sawhill 
call the success sequence where we encourage young adults to 
sequence schooling, work, marriage, and parenthood in that 
order. And a campaign like this could be modeled upon the 
success of the national campaign, the success they have 
achieved on teen pregnancy.
    Now, I recognize that some of the policies that I have 
proposed today, such as the EITC expansion, are not yet proven. 
Given that, it would be wise to roll them out in an 
experimental fashion as we are seeing right now in New York 
City.
    But we need to continue to experiment with a range of 
policy efforts like these if we seek to bridge the growing 
marriage divide in American life.
    Thank you.
    [The prepared statement of Mr. Wilcox follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          

                                 --------
                                 
                                 
    Chairman BOUSTANY. Thank you.
    Ms. Deviney, you may proceed.

STATEMENT OF FRANCES DEVINEY, PH.D., ASSOCIATE DIRECTOR, CENTER 
                  FOR PUBLIC POLICY PRIORITIES

    Ms. DEVINEY. Thank you, Chairman Boustany, Ranking Member 
Doggett, and the Members of the Subcommittee.
    I appreciate the opportunity to join this distinguished 
panel and testify about the challenges facing low-income 
families in today's economy.
    And as an Associate Director at the Center for Public 
Policy Priorities, I track the wellbeing of Texas children and 
families. And I would like to focus on three points in my 
testimony today.
    First, to move America forward, we have to focus on what is 
best for kids, which means we have to focus on what is best for 
families as well.
    Second, to significantly reduce poverty, you must have 
strong job creation and a well-functioning safety net to be 
able to stabilize families.
    And third, we must look locally for innovative new 
strategies and then invest in them to take them to scale.
    So first, I would like to say that, you know, Texas is a 
bellwether for the U.S. regarding these issues. Now, it is not 
just because Texans say that we are the most important State in 
Texas, I know we are not, regardless of what people tell you, 
but it is just a basic numbers game.
    Today, one of every 11 U.S. kids lives in Texas. So, in 
other words, if we can move the poverty needle for kids in 
Texas, we can move the needle for kids across the country.
    So, we can all agree that the best way to end child poverty 
is to make sure parents have a good job. And in Texas, it would 
seem that we have the perfect formula for that. We are the 
leader in job creation among States, and we have one of the 
lowest unemployment rates in the country.
    Unfortunately, working hard is not always enough to get by. 
Even with strong job creation and a low unemployment rate, 
child poverty, as we have said already today, is higher today 
than before the recession, and one of every four Texas kids 
lives below the poverty line.
    Why would that be? Well, there are a lot of reasons, but 
one of them is good-wage, mid-wage jobs disappeared during the 
recession, and during the recovery they were filled in by low-
wage jobs. In fact, Texas relies on a larger percentage of low-
wage jobs for our economy than most other States. And 
consequently, a big percentage of our working families live 
below the poverty line.
    So how do low-income workers get into good jobs? Well, 
ironically, it is not just about creating more good jobs. 
Texas' data shows that. To get out of poverty, people need the 
stability that is provided by what we call the safety net to be 
able to train for and get those better jobs. Struggling to feed 
your family or find child care can become insurmountable 
barriers to improving your financial situation.
    Now, in Texas, during the recession, unemployment insurance 
was the only lifeline for more than 713,000 Texans who lost 
work through no fault of their own. And the Supplemental 
Nutrition Assistance Program made sure that 3 million Texas 
families didn't go hungry when times were toughest over several 
years. And the earned income tax credit, one of the country's 
most successful anti-poverty programs, pulled over 760,000 
Texans, over half of whom were kids, out of poverty in the 
years following the recession.
    Unfortunately, one key safety net program, TANF, falls 
short on this level of success. After years of disinvestment, 
TANF, the preliminary program for helping people in poverty get 
back on their feet and find work, only reaches 5 percent of all 
Texans in poverty.
    Today, Texas spends less than a quarter of our TANF block 
grant on basic cash assistance, work-related activities, and 
child care combined. The other three-quarters basically go to 
fill holes in our State budgets and allow the State budget 
writers to invest less overall in our anti-poverty efforts.
    But the TANF story can have a silver lining. There are 
proposals to allow States to use TANF dollars for more sectoral 
job training, and Texas has many strong innovative strategies 
that could be scaled up to the State level. As Congressman 
Doggett already mentioned, we have the Project QUEST in San 
Antonio, and we have a similar program called Capital Idea in 
Austin. They have had great success with both sectoral training 
and additional educational opportunities and connecting 
committed-yet-underemployed adults to higher education and to 
those employers who were in need of those highly-skilled 
workers.
    But of course, there is limitations to the successes that a 
local innovation can achieve on its own. Obviously, home-grown 
solutions are excellent at matching select community needs and 
thinking outside the box. But to have a significant impact on 
poverty, only significant investment at the State or Federal 
level can create the infrastructure to take small successes to 
scale.
    So how do we move America forward? As you continue these 
important hearings, I encourage you to ask yourself, what is 
best for kids? If a parental job is the best antidote to child 
poverty, ask yourself, what do families have to have in place 
to make sure they can get and keep a job?
    How do we create an environment that gives everyone the 
chance to compete and succeed? From that perspective, the 
safety net clearly serves as a foundational step to 
strengthening American families so that they can move out of 
poverty and stay there.
    Thank you.
    [The prepared statement of Ms. Deviney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 -------
                                 
    Chairman BOUSTANY. Thank you very much for your testimony.
    The buzzing you heard earlier were votes that were called. 
We have about, what, 5 or 6 minutes left, I believe, so I think 
what we will do now is the Committee will stand recessed. We 
will vote. We have three votes, and we will return promptly and 
resume with questioning of the witnesses.
    And with that, this Committee stands recessed.
    [Recess.]
    Chairman BOUSTANY. Given that we have already heard your 
oral testimony, we will begin with questioning. And I will 
start off.
    One of the main responsibilities of our Subcommittee is to 
look at strategies to reduce poverty. And, of course, when we 
talk about poverty here in Washington, you know, we talk about 
numbers and all the information you provided is very, very 
compelling. But my hope is that we can eventually get to a 
point where we are getting beyond some of that and look at what 
kind of policies do we need to develop to help people escape 
from the poverty trap, to escape from, you know, the assistance 
programs and move up the ladder of opportunity.
    And I know, Mr. Haskins, I am certainly aware of the 
decades you have spent studying and working with your time on 
the Committee. Take a step back and give us a little indication 
of what someone, you know, what happens, what does it look like 
when somebody actually does make that transition out of poverty 
and off these assistance programs.
    We need to understand what is working, you know, whether it 
is anecdotal or--systemically what works and what doesn't. And 
I know there are all kinds of other factors, whether it is 
substance abuse, addictions, things of that nature, too. But I 
want to, I guess, try to personalize this a little bit and give 
us some ideas on how we--what we need to look at to try to 
create that opportunity ladder. Because we have so much 
untapped potential in this country that is languishing and it 
becomes generational.
    So with that, I would just open that up for comment.
    Mr. HASKINS. First of all, I think it is very important to 
realize that we have millions of low-income mothers and fathers 
and people of that age, early 20s and so forth. Our goal should 
be to get them to work, not necessarily to escape the programs. 
Because, as I showed, the programs are what really takes them 
and their children out of poverty. So it is going to be very 
difficult.
    And the reason is simple, it is because at the same time 
that education has stagnated among low-income families, the 
demands of the American economy have increased very 
substantially. There is a wonderful book about this by Katz and 
Goldin at Harvard about the race between education and 
technology. And I doubt anybody on this panel disagrees, so I 
don't think you can find anybody that disagrees, that to make 
$50, $60, $70,000, let alone over $100,000 now, you have to 
have skills and education.
    The one intermediate position that I think might be hopeful 
and that the Committee could look at more carefully is 
certificates in other kinds of skills, like welding and 
carpentry and so forth, and especially apprenticeships. Because 
then people--employers like that because they can pay a reduced 
wage for 2 years or however long it takes for the person to get 
enough skills to be certified in whatever the area is.
    So I can tell you when we first passed welfare reform in 
1996, a lot of people thought, both Republicans and Democrats, 
that once these mothers got in the workforce, they were going 
to start out making $8 or $9 or $10,000 a year. But come back 5 
years later, to making 15 or 20. It did not happen very often. 
And it didn't happen, I think, because they just did not get 
the skills and education they would need to move up. It wasn't 
just a matter of experience in a, you know, in a service-sector 
job. They needed skills and education.
    To me, that is the big issue. The Committee can figure out 
ways to help low-income mothers that are rearing kids and 
working at the same time with very few benefits and so forth. 
If you can figure out how to help them get education of the 
kind that will actually help them, I think the community 
colleges have to be involved, that will be a big success.
    Ms. DEVINEY. May I add a comment to that, Chairman 
Boustany?
    Chairman BOUSTANY. Sure. Sure.
    Ms. DEVINEY. One of the research projects that we have done 
at the Center for Public Policy Priorities is to look at how 
much it actually costs for families to be able to make ends 
meet in each of our big metro areas in Texas. And to confirm 
the point that Dr. Haskins just made, what it would take for 
families to be able to make ends meet, cover basic rent based 
on Section 8 housing, to cover low-cost food, buying food in 
bulk, and never eating out, never eating much meat, not saving 
for, having any kind of emergency savings, not buying Christmas 
or birthday gifts, it would cost a two-parent, two-child family 
about $11 an hour each that they would have to make in 
Harlingen, which is our least expensive city in the State, and 
up to about $17 an hour per worker in the family for both two-
parent families to be able to make ends meet.
    So our choices are this: Do we then expect businesses to 
pay all of their workers $17 an hour? Which, of course, we are 
going to say no, that is not, you know, practical or possible 
for any small business to try to meet. So then what do we have 
to do to be able to fill that gap for families so that they 
don't fall through the cracks? And I just wanted to kind of 
reinforce what Dr. Haskins had to say, that, you know, it does 
require some additional supports to be able to subsidize work 
and help the families make ends meet.
    Chairman BOUSTANY. Thank you.
    Either of you want to opine on that?
    Mr. WILCOX. Just to sort of build on the apprenticeship and 
vocational front, we have, I think, to be aware of the fact 
that, sort of, college is not the only route for success in 
America today. And there has been good evidence from Bob 
Lehrman at the Urban Institute on apprenticeships. And also in 
terms of vocational education, career academies and our high 
schools across the country have been serving younger adults, 
particularly younger men, get the skills they need to flourish 
in today's labor markets and also have higher marriage rates 
down the road as well. So thinking about education in a variety 
of ways and in diverse ways, including, kind of, vocational 
education, apprenticeship, well, you know, models as part of 
our thinking would be important.
    Chairman BOUSTANY. Thank you.
    Mr. WINSHIP. I would endorse just about everything that the 
other three of my panelists have said. I would just add two 
other ideas. I think if we are looking at higher ed reform, I 
think income share agreements, which Brad's colleague, Andrew 
Kelly, at AEI has talked about, the idea that you remove a 
small number of regulatory barriers and you could actually 
create a market for investors to finance higher ed for kids, 
which sort of the immediate benefit is you are helping kids pay 
for college. But I think in the long run, the more important 
benefit is it injects some competition and some accountability 
for higher ed institutions.
    If you are doing a terrible job getting your kids out and 
well educated and prepared for work, investors are going to 
offer pretty lousy returns to the kids who are attending your 
school. That forces you as an institution to think harder about 
what you are doing.
    I also think if we are talking about opportunity, you know, 
a lot of these gaps in terms of test scores and things like 
that are there at age 5. And so I really do think it is 
important to try to look at the early years. We don't have 
great evidence at all on models like Head Start, for instance. 
I would argue that the evidence there is pretty discouraging. 
There is a lot of talk about pre-K. I think the evidence on 
pre-K is pretty ambiguous.
    I am not here to say that we have a ton of evidence of a 
model that works. But we could promote a program that 
essentially would give poor families a voucher to use in 
whatever way they think makes sense. Russ Whitehurst, who was a 
former colleague of mine when I was at Brookings, has proposed 
something he calls early learning family grants. And 
essentially it would voucherize our Federal early education 
policy. And by evaluating different approaches, hopefully find 
models that work better than others.
    Chairman BOUSTANY. Well thank you.
    Just to conclude my time on this, these are all very good 
ideas. And going back to the formula, Dr. Haskins, that you put 
up there, I think your first slide, low-wage job plus the 
supports, we need to also look at the educational component 
that moves them on.
    But, Mr. Winship, you said something that caught my ear and 
that is metrics. Understanding--we have all these support 
programs. Which ones are really working and which ones aren't? 
What can be done differently? And I think that is going to be a 
major task in this Subcommittee going forward.
    So thank you all.
    Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    I appreciate the testimony of each of our witnesses.
    Dr. Haskins, I think you referenced this in your original 
testimony but you think it is important that we extend the 
Family Home Visiting Program, Family Nurse Partnership, those 
types of programs that are about to expire this March?
    Mr. HASKINS. Right. And for several reasons.
    First, in the case of early education, Scott mentioned Head 
Start, for example I think the evidence that some of the home 
visiting model programs are successful is very, very strong. I 
am thinking especially of the Nurse Family Partnership program. 
So to defund those I think moves us in the opposite direction. 
It is not just that kids are behind at 5, they are behind at 3. 
So the earlier, the better and that is where home visiting is 
so important.
    The second thing is a very nice aspect of home visiting is 
it assumes a mother's competence. And it helps a mother become 
more competent and presumably with her other kids as well. And 
it isn't just about direct interaction with the kid, it is 
about the rest of her life, about smoking, breastfeeding, 
drinking, and so forth. So I think that is a really important 
thing.
    The third thing is, that I hope I am going to be able to 
study, in fact, I have an appointment to talk to people in 
Texas because Texas has I believe more programs than any State 
in the country, and that is the organization at the State 
level. That is something we often ignore in Washington. But the 
State-level organization of home visiting programs, the States 
had to do, had to do a problem analysis, have a written plan, 
focus the resources on the communities that are most 
disadvantaged. We are right in the middle of this. We are 
having a lot of real high-quality evaluation. Everybody talks 
about accountability. Well, we have more accountability in this 
program than any program I am aware of. Plus we have a 
spectacular national evaluation going on that is being done by 
MDRC in New York City. We are going to learn a ton from that.
    So to me, if we stopped home visiting at all these various 
levels, it would be really a shame.
    Mr. DOGGETT. I really appreciate your testimony. Because, 
as you know, we don't have a funding source identified at this 
point. Next month the program expires. And I think it is really 
important to renew it. It is not a panacea. But it helps 
parents be what they really want to be. And, as you mentioned, 
it has benefits for the parent and their attitudes about work 
and participation.
    Similarly, I believe your testimony indicates that it is 
important on the earned income tax credit to increase it for 
childless adults to better incentivize work and reduce poverty.
    Mr. HASKINS. Yes. Chairman Ryan has proposed that. And the 
President has proposed it. And the proposals by the President 
and Chairman Ryan are really similar in many respects. So I 
think it is a question of figuring out a way to finance it. And 
I think there would be a big bipartisan vote to do it.
    And it is really crucial because we have not had any 
success with young males, especially young black males. And if 
you could lure them into the labor force by increasing the 
amount of money that they will earn, because they are in the 
same situation as mothers, they are not going to earn much 
money, that would be a big step in the right direction.
    Mr. DOGGETT. And you support the more generous child tax 
credit provisions that will expire in 2017 if we don't----
    Mr. HASKINS. For the additional child tax credit, yes, 
absolutely.
    Mr. DOGGETT. And, Dr. Deviney, if I might redirect you to 
home for me in Texas--and since Chairman Ryan was mentioned, 
there is a belief in some quarters that if we will just package 
up everything from Pell Grants to school lunches, as the House 
Study Group suggested a few years back, and put it all in one 
big package and just with a bow give it to the States, that 
they will figure out what the best way is to spend it and 
everybody will be happier. What has been the experience in 
Texas with doing that on TANF?
    Ms. DEVINEY. Well, that is a really good question. And 
Texas actually has a lot of things that we can teach both other 
States and the Federal level about those block grant programs.
    Now, one of the best things I can say about Texas is that 
we spend our dollars really wisely. Whether it be a big pot or 
a small pot, we spend them in the right ways. The problem with 
our TANF block grant in particular is that we are only 
dedicating a quarter of the money that we get to the original 
intention of the program in the first place.
    Now, the other three-quarters of the dollars we are 
spending, we are spending on goods things. I mean it is not 
like we are buying flowers and candy for everyone at the 
Capitol or anything. We are actually spending it on child 
welfare programs. And we are----
    Mr. DOGGETT. In some cases, child welfare programs that the 
State was doing before it used this money----
    Ms. DEVINEY. And that is the key point. So when you start 
using those dollars for other programs that the State has a 
mandate----
    Mr. DOGGETT. And no maintenance of effort.
    Ms. DEVINEY. There is no maintenance of effort. And they 
are using it to fill, particularly during the recession when we 
had a decline in our State budget, we used those moneys to fill 
holes where the State had a responsibility to actually cover 
the basic services. And then we are relieved of that 
responsibility, so funding for anti-poverty programs goes down 
overall.
    So that is a really big concern we have about block-
granting programs. It is not that States are necessarily going 
to do bad things with the dollars. But you have lower 
investment overall in anti-poverty programs.
    Mr. DOGGETT. Thank you all.
    Chairman BOUSTANY. The gentleman, Mr. Young.
    Mr. YOUNG. I thank the Chairman for convening this hearing 
and the Ranking Member for his constructive participation.
    Really, it is an honor to be a Member of this Subcommittee 
and to have all of you here before us today.
    I see this area, poverty alleviation, addressing the needs 
and even aspirations of low-income individuals and families, as 
an area ripe for not just review and rigorous evaluation but 
innovation and restructuring here at the Federal level. The 
timing is right. There is a lot of public attention on this 
area. I think there is plenty of bipartisan agreement.
    I have to say I was really encouraged about the things I 
heard from our Ranking Member, a focus on prevention, on 
skills, on eliminating barriers to work, on ensuring we have a 
reliable safety net, on focusing not just on inputs or on 
specific programs and their authorization or so forth, but also 
on outcomes, more importantly on outcomes.
    And so my temptation is to skip to the subject of 
evaluation and try to elicit from all of you how we can ensure 
that more programs are rigorously evaluated, to get your 
thoughts on how many have been rigorously evaluated and what we 
have learned. I think I know the answers to many of those 
questions. But I understand there will be further hearings that 
will be in a more targeted fashion focused on just those items.
    Since this is sort of a hearing to establish a baseline 
about the challenges facing our low-income population, I would 
like to ask a broader question of our panel and that is if one 
grows up poor, what impact does that have in today's United 
States of America, on that child's, that adolescent's future 
prospects? The American dream has long been associated, it is a 
vague concept but I know it includes certain elements and these 
are pretty much commonly held, I think, among all Americans. It 
entails defining one's own destiny. It means harnessing one's 
own God-given capabilities and making the most of those 
capabilities. And it also entails becoming happier, at least 
pursuing happiness through earning your success.
    But there is at least a sense in the country and maybe it 
has been documented, maybe it is more than a sense, I think it 
is, that if one grows up in the humblest of circumstances, it 
is harder to move up the income ladder than if one grows up in 
a securely middle-class atmosphere or so forth.
    And so if you could speak to some of the data on this 
subject, mobility and how it drives--or lack thereof and how it 
might drive inequality and how that has changed over time, and 
the extent to which existing social programs here at the 
Federal level have helped mitigate some of the challenges of 
moving up the income strata, and how much further work we have 
to do? It is a big question.
    Mr. HASKINS. Let me say something quickly about the data.
    First of all, there is no question that if you are born 
into poverty, that you face serious disadvantages. And it has 
shown up generation after generation. I will just give you one 
number. If you divide the income distribution into 5ths and 
compare kids whose parents were in the bottom 5th, so it would 
be 20 percent needs distribution if we have perfect equality. 
There is more like 45 percent of the kids from the bottom, 
lined up in the bottom. And even more alarming, they have about 
a 5 percent chance of making it to the top. So we do not have 
equal opportunity in the United States.
    The second point, though, there are 60 percent of kids that 
escape. And if you focus on that, you say well, some kids can 
do it. Some of them even make it all the way to the top, not 
enough, but these kids are doing something right.
    So I think a main point is we tend to, especially when you 
read about this in the media, they say oh, warn these kids, 
they don't have a chance. They do have a chance. But it is less 
of a chance than their peers that are from wealthier families. 
Now, we are not going to be able to change the income of all 
those families.
    Mr. YOUNG. Has it become harder in recent years for----
    Mr. HASKINS. No. That was going to be my next point.
    Mr. YOUNG. Okay. All right.
    Mr. HASKINS. I think it is amazing, Scott and I used to 
write stuff and argue all the time, it hasn't changed. And then 
a guy at Harvard named Chetty did a new study based on tax data 
and showed it hasn't changed in three generations or four 
generations. So I think there is a----
    Mr. YOUNG. Okay, time is limited. So it hasn't become 
harder in your opinion. But can we do better? I think I will 
see affirmative nods from everyone there.
    All right. Thank you.
    I yield back.
    Chairman BOUSTANY. I thank the gentleman.
    We will go to Mr. Holding next.
    Mr. HOLDING. Thank you, Mr. Chairman.
    You know, the statistics and research around family 
structure and how it affects poverty and the economy, you know, 
are just mind numbing. It is stark. But, you know, they were 
stark when Daniel Patrick Moynihan first came out with his 
study, as you know, showing that correlation.
    What do you think the underpinning of the decline of the 
family is? Is it poverty came before it declines the family, so 
you result in more poverty? Or is there a different 
underpinning? And can you take it back in time to when we first 
started looking at this in the 1960s?
    Mr. Winship, we will start with you.
    Mr. WINSHIP. Well, Brad is certainly the expert on this. So 
I won't say very much. You know, I do think the argument that 
it is primarily economics really has to contend with the fact 
that, you know, our family structure problems have sort of 
arisen since the 1960s.
    And even in the 1960s, we were a much richer society than 
certainly in the 19th century or any other earlier time in the 
20th century when we didn't have nearly as much single 
parenthood as we do now. So I do think at root the problems are 
around changes in the culture in the United States and in the 
policy incentives that are embedded in some of our programs 
but----
    Mr. HOLDING. Mr. Wilcox, do you want to expand on that a 
little bit?
    Mr. WILCOX. Yeah, I guess I would disagree a little bit 
with Dr. Winship in terms of the economic story. And that is 
simply that we are seeing declines in real wages for less 
educated men and, probably more importantly, less of them are 
in the workforce for a variety of reasons. So there is an 
economics, you know, piece to this.
    And it is no accident, of course, as I said in my 
testimony, there is a marriage divide in America now where 
those who are educated and affluent are doing pretty well. And 
those who are less educated and lower income are doing a lot 
worse. So that is part of the story. And shifts in men's place 
in the labor force, I think, since the 1970s helps to account 
for this growing marriage divide in America.
    But I think it is also the case that cultural changes, 
changing, you know, of views about the importance of marriage 
for having kids, about divorce, about fulfillment, you know--
are part of the story. I think changes in our civic sort of 
sector, we are seeing much greater declines both in secular and 
religious engagement among less-educated Americans compared to 
college-educated Americans. That is part of the story. If you 
are not connected to these civic institutions, you have less 
support for getting and staying married.
    And then I think public policy too since the 1960s has 
often unintentionally penalized marriage. I have, you know, 
some quotes in my testimony that reflect basically that a lot 
of our means-tested policies, you know, make it sort of----
    Mr. HOLDING. Maybe we can tease that out with some 
examples. I mean, the research says that if a child is going to 
have a better chance of breaking that cycle of poverty, they 
come out of a two-parent household. So, you know, looking at 
some social policies now, you know, point out how support would 
differ between a two-parent family and for a single-parent 
family and to the degree that maybe it encourages a single-
parent family rather than a two-parent family?
    Mr. WILCOX. So the EITC is complicated because, you know, 
when you have one member of a couple who is earning a lot more, 
there is actually, you know, some incentives to get married. 
But when you have both members of the couple who are earning, 
you know, comparable wages, they can incur some substantial 
penalties.
    But then more generally, many of our means-tested policies, 
like, for instance, Medicaid, you know, penalize folks who get 
married, you know, because obviously they are getting more 
income into the household. So there is an incentive for them 
just to cohabit or not get together if they are concerned about 
continuing to get access to Medicaid.
    So that would be one concrete example where I think many of 
our means-tested policies unintentionally make it economically 
non-rational, you know, for folks who are living together to go 
ahead and get married.
    Mr. HOLDING. So really some of the safety net, you know, 
that we have in place discourages a married, two-parent family 
is in sum what you are saying?
    Mr. WILCOX. In simple economic terms, that is true. What we 
don't know is sort of what percentage of the low-income 
population is sort of making decisions about marriage based 
upon, you know, means-tested policies. And that is something we 
need to know but we don't yet know the answer as to what share 
of our population is really making decisions about marriage and 
family life based upon how it would affect their access to 
something like Medicaid.
    Mr. HOLDING. All right. Ms. Deviney, do you want to use a 
few of my last seconds there to----
    Ms. DEVINEY. Thank you very much. I appreciate that.
    Yes. The one thing that I wanted to add in was that in 
Texas, because of the way we use our TANF program and the 
amount of dollars that we dedicate toward cash assistance as 
one example of the means-tested programs, the average is about 
$74 per person and it is primarily child focused. And so I 
would argue that that amount of money per month is not 
encouraging women to stay single, that the benefits of having a 
two-income family would be much greater than the additional 
resources that they get from the $74 a month.
    Mr. HOLDING. All right.
    Thank you, Mr. Chairman.
    Ms. DEVINEY. Thank you.
    Chairman BOUSTANY. Thank you.
    Mr. Davis.
    Mr. DAVIS. Thank you, Mr. Chairman.
    I want to thank you and the Ranking Member for calling this 
hearing, especially on this subject. It happens to be one that 
I have been familiar with all of my life.
    Practically everybody that I grew up with would have been 
called in poverty if we based it on the income of their 
families. Many of the people that I have known my entire life 
would have been impoverished based upon their incomes. And yet 
many of these people have overcome whatever it was that they 
initially were, in whatever ways that they came.
    Education and work opportunities we have mentioned a great 
deal. We also have learned and we know that much poverty can be 
found in single-parent families that are often headed by 
females. And that is because children oftentimes more often are 
with their mothers.
    I was intrigued, Mr. Winship, as you were talking about 
individuals who indicated that they did not necessarily want to 
work. I happen to believe that work is an absolute virtue. And 
that those individuals who are cut off from the world of work 
are missing an integral part of life, the fulfillment of having 
a job, going to work, earning money.
    Dr. Haskins, as you talked about people moving into the 
workforce and I am thinking that in the city where I live, 
especially in the building trades and places where there are 
apprenticeship opportunities, individuals are denied, barred 
from and locked out of that.
    I appreciate all of the programs that we talk about. And 
especially was I delighted, you know, to hear about home 
visiting. I have been engaged with it, I guess, for at least 40 
years or more, from the time that I worked in community health 
centers and we were taking health workers out, knocking on 
people's doors, telling them about what was available. And so 
it helps.
    Could each one of you just take a little shot at how do we 
increase two-parent families? I mean what, what do we do? What 
can we do to increase two-parent families?
    Mr. HASKINS. Here is one idea that has a lot of data behind 
it, the longer a woman waits, the more goods and income that 
she accumulates. And as she gets older, the males that she is 
likely to marry get older as well. And they also are more 
likely to work. And it helps a lot if she has not had a 
previous child, especially outside marriage.
    When you interview these mothers, they say they don't want 
to have children. And yet they get pregnant. So I think if we 
had more effective policies to offer birth control to mothers, 
that that would be a step in the right direction. That is not 
going to be the whole solution. But that is a step in the right 
direction. Because they will get older without having children. 
They can continue their education or get experience in the 
labor market, have more time and more maturity to pick out a 
better male because they say they want to get married.
    So I think that would be one thing, we should have free, 
long-acting, reversible forms of contraception available to 
low-income women.
    Mr. WINSHIP. So I sort of look at the earned income tax 
credit as a big policy success. You know, for a long time, I 
think we tried to sort of convince people through moralizing 
that they ought to work more, that work was good for them. But 
I think it was really the earned income tax credit that 
convinced a lot of people to do it. It was a real financial 
incentive.
    I think we ought to consider a kind of married parent tax 
credit that says to heck with trying to convince people to get 
married or stay married and sort of moralize it, give them 
financial incentives to do it. So, that is what I am sort of 
thinking about.
    Mr. WILCOX. I think continuing to try to subsidize lower-
income work, trying to minimize marriage penalties and means-
tested policies and also trying to figure out some kind of 
cultural campaign like we had with teen pregnancy that would 
encourage Americans to put marriage prior to parenthood would 
also be helpful. Just three ideas.
    Ms. DEVINEY. I actually don't disagree with anything that 
my other panelists have said so far. But I would say, I would 
reiterate the issue around birth control. Because in Texas, we 
have actually had an active attack on women's health. And we 
have defunded women's health extensively. It is not just about 
some of the more controversial issues but it is also about 
access to birth control and family planning that would actually 
help women to delay childbirth and engage in expanding their 
education and moving ahead.
    The other thing I would put forward, in addition to the 
ideas that have been put out here today, is using financial 
planning, which in Texas we have added to our curriculum a 
basic financial planning as part of the public education 
curriculum, where kids actually learn about what does it 
actually take to be able to make ends meet, how much money, 
what kind of job does it take, what kind of education do you 
have to get to get that kind of job to actually help you be 
able to make ends meet.
    And it is a real, you know, shock to the system to actually 
really look at those dollars and think like okay, if I am going 
to make this work in my life, what do I actually need to do? 
And you get it early and it helps you be able to set some goals 
and to plan. Now, is that going to prevent any kind of single 
parenting? You know, not on the grand scale. But it definitely 
puts people on a right path in thinking about what are the 
steps that it takes to be able to be financially secure as an 
adult.
    Mr. DAVIS. Thank you very much.
    Chairman BOUSTANY. I thank the gentlemen.
    Mr. Smith.
    Mr. SMITH. Thank you, Mr. Chairman.
    The USDA Economic Research Service defines counties as 
being persistently poor. And their definition there isn't a 
result of counties that for 30 years, that more than 20--20 
percent or more of their population is considered in poverty. 
And what I found quite alarming, of the 353 persistently poor 
counties, 85.3 percent are from rural America, not urban areas.
    In fact, 13 of my 30 counties are classified out of those 
353 as persistently poor. And we have had record levels of 
spending on anti-poverty benefits over the years. And I feel 
like rural counties are being left behind. And I would like for 
all of you, or whoever might want to respond, but I would like 
each one of you to address the rural-urban divide when you are 
looking at poverty and maybe any ideas or strategies that you 
think might be addressed that could help rural America.
    Mr. HASKINS. There is likely to be a lot of silence. I have 
looked into this a little bit. And it is very difficult to find 
any programs that have been well evaluated that are able to 
solve the problems of rural America. I think the Congress makes 
a legitimate effort to try to make sure that the Federal 
resources are distributed fairly. Maybe they fail in some 
cases. But at least there is some equality there in investing 
resources. But it hasn't resulted in kids being smarter and 
getting better jobs, more innovation, more job creation and so 
forth.
    So I think if you look at the numbers, it is a distressing 
picture. Because in addition to what you just described, there 
has actually been an exit in the last 3 or 4 years from non-
urban counties. And there is more inequality, higher levels of 
poverty. So there is a whole range of problems. And I don't 
think it has been a focused area of the media, of the scholarly 
world, of advocates.
    I am not sure we can do anything. We can't point to 
something and say oh, it shows, like we can with home visits, 
oh, this works great. We don't have things like that that I am 
aware.
    Mr. WINSHIP. I grew up in a working-class community in 
Maine. It wasn't poor but it certainly wasn't middle-class. And 
I think about kind of where some of my classmates have ended 
up. And it is interesting, I think there is this tension that 
you also see when you think about inner-city poverty. On the 
one hand, you can try to invest a lot in the community and 
convince people to stay and improve people where they are.
    An alternative strategy, I think, is to encourage more 
residential mobility. And, of course, it doesn't help if you 
sort of want to preserve a robust community. But I think we 
underestimate the extent to which people better themselves by 
moving to opportunity. And so I am not quite sure this is the 
answer that you are looking for. But I do think we have seen 
residential mobility decline over the last couple of decades. 
And I think if there are ways through the Unemployment 
Insurance program or otherwise, to be able to help people if 
they want to move to places that are booming.
    If we could get a bunch of people to move to North Dakota 
or South Dakota these days, a lot of folks would be quite a bit 
better off, shifting people to where the opportunity is.
    Mr. WILCOX. And I think one thing that is important to 
realize too is, you know, for a long time, there was concern 
about sort of family life in inner-city America. But we now see 
that the trends I have been talking about today are distributed 
pretty evenly. So this retreat from marriage that I have been 
talking about today is very much a rural thing as well.
    So part of the problem facing many rural communities is 
that there are many more young adults who are cohabiting, 
having kids outside of marriage, experiencing family 
instability and single parenthood. And that affects both, you 
know, their odds of making it in America but also their kids' 
odds of making it in America as well.
    Ms. DEVINEY. I am not going to pretend that I have a really 
good solid answer for you. But I can say this: What we are 
talking about there is resources. Because so much has been 
dedicated to what happens in urban communities in terms of our 
anti-poverty programs because the resource is already there to 
build on, the infrastructure. So something that comes to mind 
for me is our combined spending program in Texas where we 
actually recognize when people are coming from poverty and are 
able to support schools with some extra funding to be able to 
help close that gap in terms of the needs of children in 
poverty.
    What I wonder is because we are talking about a gap in 
terms of resources for rural communities is if there would be 
an opportunity to be able to dedicate specifically job creation 
funding or other technology funding to rural communities as a 
way to balance out the gap between the infrastructure that 
already exists in urban communities and what exists in rural 
communities.
    Mr. SMITH. Thank you, Mr. Chairman.
    Chairman BOUSTANY. Thank you.
    Mr. Meehan.
    Mr. MEEHAN. Thank you each for all of your work in this 
area. I mean it is so critical and so vital and important to 
actually be looking at what is effective and the most and best 
use of the resources that can be put into this. But I am 
still--I am struck because we can look at this at various 
points along the spectrum and each of them is influential.
    But I go back, let me start at the very beginning because I 
am getting a little ambiguity in your testimony. There was 
discussion about the effectiveness of Nurse Family Partnership 
and how there can be a real impact. And then we talked about 
pre-kindergarten education. And I think your testimony was that 
well, it is sort of not certain. What do we know? You are 
confident in an early program. We are still waiting to see. And 
I have had educators say to me oh, invest in pre-K. But is that 
effective? I mean, how do we know where the more effective ways 
are to make a difference?
    Mr. WINSHIP. Yeah again, I am going to largely defer to my 
colleague because Ron just wrote a book about evaluation. I 
think the difference between Nurse Family Partnership and pre-K 
is that the, I would say the evidence on Nurse Family 
Partnership and home visiting is less ambiguous than the pre-K, 
Head Start research.
    You can find studies that are supportive of pre-K and even 
Head Start. You can find a lot of studies, including federally-
sponsored ones, that show that there is not a lot of reason to 
bank on it.
    Home visiting, the evidence has been more positive I think. 
I am actually a little bit more skeptical of it than Ron is. 
But I think the way that we are approaching it is exactly the 
right one where we are putting relatively small amounts of 
money into it. We are evaluating it.
    Mr. MEEHAN. Is it because of the spectrum of issues that 
can be resolved by somebody coming in in a Nurse Family 
Partnership may touch with health care, it may touch with 
getting somebody in a family counseling for abuse or something 
like that? I mean is that--are those things because of the 
broader issues you are dealing with, you are having more of an 
impact?
    Mr. WINSHIP. I think it is possible--certainly home 
visiting is less ambitious in terms of what it is trying to 
impart to people. You are trying to teach a fairly basic kind 
of parenting and healthcare skills to parents, as opposed to, 
you know, Head Start, setting up a big institutional center and 
curricula. In some ways, it is more ambitious. That could have 
something to do with it but----
    Mr. MEEHAN. Mr. Haskins, did you have----
    Mr. HASKINS. I think there is a way to bring some coherence 
to the literature. You are right, there has been a huge debate, 
especially since President Obama introduced a $90 billion or 
$80 billion, whatever it was, pre-K program and now childcare. 
We spend at least $30 billion the Federal Government states on 
these various types of preschool programs.
    A lot of that is Federal money. I think if you look at all 
the research, you will come away with this conclusion, that 
there are programs that have shown that they can be very 
successful, they boost kids' test performance, the kids behave 
better, they do better in kindergarten, and they do better, 
say, through 3rd or 4th grade, but not very many programs like 
that. And the reason Head Start is such a disappointment--and 
you see the same thing in Head Start, you can find Head Start 
centers that are spectacular, their kids do well, they do well 
in the public schools. But most of them are average. Some of 
them are terrible. That is the problem. And this is----
    Mr. MEEHAN. Is it program to program?
    Mr. HASKINS. This is the Federal disease. We try to have a 
big network of programs. And to maintain quality control in 
1,000 or 5,000 or 10,000 programs is almost impossible. That is 
the nut that we have to crack. We have to figure out what the 
definition of a high-quality preschool program is, teacher 
training----
    Mr. MEEHAN. But your point being that that same program may 
be well operated in Houston and, therefore, successful but not 
as well operated in a particular neighborhood in Cleveland and, 
therefore, not successful?
    Mr. HASKINS. Exactly. Exactly. But if you look carefully at 
the programs, you will see differences between those two 
programs, in the teachers, in the curriculum, in the way the 
whole building is organized, in the leadership, and in 
especially something new that a lot of people think is 
important, it is called coaching where teachers are constantly 
subjected, have the opportunity to have their performance 
appraised and someone, a master teacher, helps them do better.
    So if we could build a big network of thousands of 
preschool programs to do that, I think we would be successful.
    Mr. MEEHAN. Ms. Deviney, I am at the end of my--you have 
spoken about pre-K. You have talked about half-day pre-K. Is 
that different than full-day Pre-K? What are your thoughts 
about Head Start?
    Ms. DEVINEY. Well, what I can say is we have a lot of 
momentum in Texas around pre-K right now. Governor Abbott has 
it as one of his major initiatives that he wants to engage in 
this year which is really exciting. And the reason it is so 
exciting is because we actually have one of the preeminent 
researchers in pre-K, Aletha Huston, out of the University of 
Texas who just came out with a big study showing the impact of 
half-day pre-K, even looking at programs across the spectrum.
    And I will say there is a quality difference between 
programs even across Texas or even within Houston. And even 
still, the impact doesn't just go to 3rd grade, it goes to much 
further beyond. And a study by Texas A&M University shows the 
actual dollars saved. It is $1 invested for $9 saved down the 
road for better outcomes for kids because they are not going to 
jail, they are graduating at better rates. You have heard of 
these studies before, right?
    So we have data in Texas that actually shows the value of 
pre-K and the value of those programs. And if you can get them 
to be high quality, then you are actually going to have a 
better impact on kids. But even half-day pre-K is great. The 
reason half-day is different than full-day, is economic 
opportunities for parents.
    So if you have a half-day pre-K program and parents are 
trying to get their kids to the program and then go rush off 
and work for 2 hours, because half-day pre-K is about 3 hours, 
and then come back, it doesn't create a work opportunity and it 
ceases to be a work support. Full-day pre-K actually enables 
parents to be able to work for the most part a full day and 
then kids can stay in some after-school care if needed. And 
that really creates great economic opportunities for families.
    Chairman BOUSTANY. I thank the gentleman.
    Mr. Lewis.
    Mr. LEWIS. Thank you, Mr. Chairman.
    Thank you, Mr. Ranking Member, for holding this hearing.
    Thank you, members of the panel, for being here.
    I was in Texas, I was in Houston on Sunday night. I am not 
sure of what it was called--it was a huge place, it was 
sponsored by the Houston Library and the Library Foundation. 
And there were hundreds, maybe 2,500 students, young children, 
parents, mothers, teachers. And these kids, elementary, middle 
school, seemed to be so bright and so smart, just intelligent, 
asking me all type of questions.
    I am not prepared to give up on single mothers. I see so 
many single mothers. I think we have to start where we are. I 
think it was the late Booker T. Washington who said, who 
founded Tuskegee Institute, now Tuskegee University, cast down 
your bucket where you are. That is where we are in America. 
Everybody is not going to get married. We are not going to 
force people to fall in love and get married. It is not going 
to happen. It is just not going to happen. Our society is a 
different society. We live in a different world.
    So we have to reach these mothers and fathers, to encourage 
their children and young people to get the best possible 
education. Education is the great equalizer. So if it is Head 
Start, early childhood education, wherever, we need to spend 
our resources. It rescues those that may be wavering or, we 
think may be lost. How do we do it?
    Ms. DEVINEY. Well, thank you for that point. I think that 
what we have been talking about a lot today is about the 
sanctity of marriage and about the decline of marriage. And the 
strategies we take are about trying to increase marriage before 
you actually get down the pike and you have a family, right? So 
increasing marriage is great. I am a developmental psychologist 
by training. And I know that the research shows that kids do 
better and have better outcomes when they have two parents in 
the home.
    And from poverty measures, just from that basic math, when 
you have two people earning more money, you are going to have 
more income in the home. It is all, you know, all really good. 
But I think your point about starting where we are, we don't 
give up on the kids that exist today.
    Mr. LEWIS. I think that is my point--we never ever give up.
    Ms. DEVINEY. Yes. We never give up on the kids. And one of 
the things that we actually put out a study recently looking at 
the economic opportunities for Texas women was that when you 
look at, even when women actually get higher education degrees 
or even just a post-secondary degree or even just a high school 
degree, they make less than a man who has more education than 
they do--I'm sorry, less education than they do. So a woman who 
gets a college degree makes less than a man with a high school 
degree. And so there is that gap between what kind of wages 
women can earn.
    Now, part of that is because of the different kinds of jobs 
women may be encouraged to go into. But a lot of it has to do 
with, even when you are looking within sector and even when you 
pull out the data just looking at women who have never left for 
childbearing, who have never--all these reasons we give, there 
is still a difference. And so one of the things I think we 
really have to focus on, in addition to trying to create good, 
solid, strong families for children, is making sure that women 
have access to the same economic opportunities that men do 
because the reality is we have single-parent families today 
that need support and need help.
    Mr. LEWIS. Is it different in a household headed by a woman 
or a household headed by a man?
    Ms. DEVINEY. Are outcomes different?
    Mr. LEWIS. Yes. Right.
    Ms. DEVINEY. To be honest, the research shows that it 
differs depending on the age of the child, it differs depending 
on the gender of the child. There are some differences. But 
what really matters most and some of the strongest research 
shows that children who are in chaotic homes, be they two-
parent families or single-parent families, suffer the worst 
outcomes.
    So trying to create an environment where the family, 
whatever their structure is, has less of that toxic stress 
going on is going to have the best outcome for kids. Again, two 
parents earning two incomes supporting the child equally and 
loving them is always the best opportunity. But if that is not 
the case, what can we do to make sure that child has the same 
opportunities as other kids.
    Mr. LEWIS. Thank you.
    I yield back.
    Chairman BOUSTANY. Thank you, Mr. Lewis.
    Thank you for injecting the realism into the debate. It is 
important. And I can tell you it is my intent as Chairman of 
the Subcommittee to not leave anybody behind in this. And we 
have to focus on strategies that help single women with 
children to climb out of this and seek opportunity. So we will 
work with you on that.
    Ms. Noem.
    Mrs. NOEM. Thank you, Mr. Chairman.
    It has been an interesting discussion for me because I look 
at what we have today currently in the United States and the 
situation we face with the different kind of households that 
children will come from, single, two parents in the home, 
whether they live in rural areas like all of South Dakota is or 
in urban areas.
    But I keep coming back to then how can we level the playing 
field? And it seems to me, and this is just my brain thinking 
during this hearing, that we could potentially get better 
outcomes if we have a program that has some kind of 
participation from the parents with the child. So if there is 
something required of the parents to do, you talked about home 
visits, because there is some participation with the parents 
and an opportunity for them to learn or benefit from that 
experience that potentially then helps the child go even 
farther and achieve even more, rather than a parent who might 
drop their child off at a Head Start program and then go to 
work and then leave them.
    Or are there other programs where it is more of a, I am 
thinking of, we have nutrition programs where some of them 
there have nutrition counseling that goes along with the 
program. Does that one do better than ones where there is a 
nutrition program where there is no counseling, it is just the 
benefits and there you go?
    Is there a general synopsis that you all can give me on do 
you believe we do have better outcomes in situations where 
there is some type of support, partnership, ability for the 
family to partner together to help that child succeed rather 
than just having a benefit? We will start with Ms. Deviney.
    Ms. DEVINEY. Thank you for that question. I actually spent 
a good portion of my early 20s working on a project called the 
Families and Schools Together Project. It is in several States. 
It was in Tennessee, North Carolina, and Washington. And it 
looked at how kids who were at risk for later juvenile 
delinquency or other kinds of negative outcomes as teens, if we 
intervened early, how would they do. And in that program, we 
actually made it a full family kind of wrap-around program 
where we actually engaged with parents and helped them gain 
skills to be able to support kids in doing homework and talking 
about being on time and talking about the importance of school 
and giving them parenting skills was a huge part of the 
program, in addition to being able to support the kids in terms 
of basic tutoring in math and reading support. They are just 
now releasing 20-year results on these kids. And it has been 
really exciting because what we have seen is that when you 
actually support not just the child but the whole family and 
you are supporting the concept of the family working together, 
creating that unit in support, you actually get much better 
outcomes for kids than kids who, our control group, didn't 
participate. And so the kids were much more likely to delay 
childbearing. They were much more likely to have higher 
educational attainment. They were much more likely to have 
better earnings as an adult with these 20-year results. And so 
I think it points exactly to what you are saying is that when 
you kind of support the whole family as a unit, you really do 
get better outcomes for kids. The trick is that those kinds of 
programs, they are expensive. They are expensive. And so we 
have to decide as a country, you know, if we really do value 
the family unit, how are we going to back that up with the 
support that they need to be able to make those really strong 
connections.
    Mrs. NOEM. And you may need to continue that support for an 
entire generation before you start to see the impact on your 
culture. Anybody else want to weigh in?
    Mr. HASKINS. Let me make two quick points. First of all, 
there is a new review that is about to come out by one of the 
best people in the field, a guy named Greg Duncan at the 
University of California Irvine. And he looked carefully into 
what is called a meta analysis of all the research literature 
on programs that are just preschool and ones that have a 
parenting component. But it is defined, it can't be just 
sending a note home to the parents or have the parent meeting 
once a month or something like that. It has to be an actual 
program where they are working with the parents. And it does 
make a difference on average. Those programs are more 
successful. The second thing is that in the last 2 or 3 years, 
there has been a big movement called Two Generation programs. 
So in preschool, even in the public schools to some extent, in 
employment and training programs, the idea is to work with the 
parents and the child at the same time. And it has really 
caught on. I am not really sure why because the evidence is not 
great. But I think what it shows is that people believe just 
what you said in your question, that if you involve the 
parents, you are involving someone who is going to be with the 
kid until they are 18 and maybe more than that and still 
supporting them after that. If you can increase the bond 
between the parents and show parents, give them ideas about how 
to work with their children, that the program will be more 
successful. So I think there is a lot of agreement with that. 
We will see if it turns out.
    Mrs. NOEM. Okay. Thank you. Mr. Chairman, I yield back.
    Chairman BOUSTANY. Mr. Reed.
    Mr. REED. Thank you, Mr. Chairman. And thank you to our 
panel for this conversation today. Just to try to solicit 
information here and also to try to start our conversation from 
a room of consensus, what are the barriers in your humble 
opinion as to what keeps people in poverty and from escaping 
poverty? Let's start from the left and we will go all the way 
right. So what are the top three barriers?
    Mr. HASKINS. They don't work enough. They don't have enough 
education. And they have babies outside marriage, or divorce. 
And they try to raise children in a one-parent family.
    Mr. REED. Okay.
    Mr. WINSHIP. If I think about little kids and kind of what 
the big barriers are for them, I think to an extent we don't 
appreciate the kind of upward-mobility problem in the United 
States. To a large extent, it is a failure of the country to 
have better outcomes for African American kids.
    Mr. REED. Okay. But what are the barriers here? I am going 
to run out of time.
    Mr. WINSHIP. So I think the two that I would mention would 
be growing up in unstable families, but also neighborhood-
concentrated poverty. I think growing up in a place where a lot 
of people are poor and a lot of people have challenges.
    Mr. REED. Unstable families, concentrated poverty. Mr. 
Wilcox, quickly.
    Mr. WILCOX. I would echo what Ron said. I would put a thumb 
also on doing more for kids who are not on the college track.
    Mr. REED. Okay. That is a barrier? Not doing more for 
college, that is an outcome, that is an action item. So what is 
the barrier of those kids not going into college?
    Mr. WILCOX. The barrier is we don't do enough for kids who 
are not on a college track.
    Mr. REED. So an education. Education. Okay. Ms. Deviney.
    Ms. DEVINEY. So when you start in poverty, you are more 
likely to end up in poverty. So it is a huge barrier for kids 
who actually start in poverty. Poverty itself is a barrier. And 
that actually leads to you start out in the education system 
with gaps. So a huge barrier is closing the gaps in terms of 
language development.
    Mr. REED. So education.
    Ms. DEVINEY. Education. And then affordability of the 
options that help you move out of poverty.
    Mr. REED. So cost. Let me ask you this question, let's take 
two of our largest welfare programs in America, TANF, cash 
welfare, and SNAP, food stamps. How does TANF measure 
addressing the education barrier? How do you measure that TANF 
is overcoming the education barrier? And does it?
    Mr. HASKINS. Well, you can look at the caseload over a 
period of time and see if their education increases. And the 
answer is it does not. And part of the reason there are----
    Mr. REED. Sir, Sir, Mr. Haskins, does TANF require that the 
people that are administering the program have an outcome that 
the people that are participating in the program have an 
education component to their welfare check?
    Mr. HASKINS. No.
    Mr. REED. Okay. Is that a correct understanding from 
everyone? If one of the barriers is to overcome educational 
barriers, why doesn't our program, cash welfare, one of our 
largest welfare programs in America have as one of its major 
drivers as an action item to get people an education?
    Mr. HASKINS. There is a straightforward answer. We gave the 
States, States can use the TANF dollars for education if they 
want to. Part of the idea of the TANF program in sharp contrast 
with AFDC, which it replaced, is that the States were going to 
be the real actors. They knew what their people needed. And 
they were going to use the resources for the most important 
thing for these families. And most States have not chosen to 
invest a lot of the money in education. And there are 
restrictions in the Federal statute about how much education 
they can get.
    Mr. REED. So it is countervailing to the goal that we are 
trying to get people out of poverty with and that is to get an 
education. There is a Federal statute that prevents us from 
achieving that goal.
    Mr. HASKINS. Yes. But for good reason.
    Mr. REED. And what is that reason?
    Mr. HASKINS. The reason was the Congress intended for the 
program to be a work program and not an education program.
    Mr. REED. Okay.
    Ms. DEVINEY. But what we find in Texas is that because it 
is trying to get a job first, there are education and job 
training programs in Texas, but the real goal of the TANF 
program is to get somebody into a job. So if you can get into a 
really low-paying job first, then that is the push and it is 
not the push for education to be able to get to those better 
jobs.
    Mr. REED. Is that overcoming one of the barriers? So one of 
the barriers is education.
    Ms. DEVINEY. No. That is reinforcing the barrier.
    Mr. REED. That is reinforcing the barrier. That is what I 
would say. How about SNAP? Any requirement there that there be 
an education component to it? How about LIHEAP? How about 
housing, Section 8? This is one of my biggest concerns here, 
and I have been a big advocate of the old super waiver, the 
demonstration and the whole silo effect that we are seeing in 
this field across America and a lot of these programs actually 
have unintended consequences of keeping people in poverty 
because they are just not designed to work hand in hand and 
give people the tools to get out of poverty. Am I misreading 
anything, as my experience has told me as I looked across 
America, as to the problems with most of these programs?
    Ms. DEVINEY. For example, with the Supplemental Nutrition 
Assistance Program or SNAP, what we see there is when you look 
at a family's budget and what it takes for them to be able to 
get by, what SNAP does is be able to allow families to put some 
of their money toward let's say making sure they get gas in the 
car and paying rent. SNAP helps to stabilize families.
    Mr. REED. Aren't you just essentially giving a person a 
fish and not teaching them to fish under that analysis?
    Ms. DEVINEY. Well, if there were education requirements 
that went with it, certainly that would be a different 
conversation that we could have. But right now, it does serve a 
very important point in that it helps to stabilize a family. 
Now, should we also then create opportunities for those 
families to be able to move ahead?
    Mr. REED. See, I'm looking forward too. I'm trying to 
reform the program. So going forward, wouldn't it be wiser to 
put that type of reform in place, to say we are going to teach 
people how to fish, not just give them a fish?
    Ms. DEVINEY. So for many families who live in poverty and 
particularly extreme poverty, it is not just about putting food 
on the table. It is about so many barriers.
    And so I think we have to take a really close look at 
making sure that, what do we have to get families stabilized 
first, before we can actually help them to be able to move 
ahead?
    Mr. REED. That is a fair point. And I understand. So 
crisis, overcome the crisis----
    Ms. DEVINEY. Yes.
    Mr. REED [continuing]. But then for the long term, why 
don't we design programs, in my humble opinion, that give the 
people the tools to break through those barriers of poverty?
    Ms. DEVINEY. Certainly, giving people the opportunity to be 
able to access good jobs is the best pathway out of poverty, 
and our programs like SNAP should be stabilizing.
    Mr. REED. But in order to have those jobs they have to have 
an educational component. They have to be able to pass a drug 
and alcohol test, I would assume, or a drug test. There are 
other barriers to getting that job that we have to overcome, 
correct?
    Ms. DEVINEY. Uh-huh.
    Mr. REED. All right, with that, I am sorry, Chairman.
    I yield back.
    Chairman BOUSTANY. I thank the gentleman.
    Well, I want to thank all of our witnesses for this very 
compelling discussion, your wonderful testimony, in helping us 
to examine the challenges facing low-income individuals and 
families.
    I think this has been a great foundation for us to start 
with, with the Subcommittee, and so I really appreciate all you 
have done to help us with these important issues.
    I appreciate you taking time to come here today. Your 
knowledge and experience is really important, and we are going 
to fall back on your knowledge and experience as we go forward 
with trying to solve some of these problems.
    Let me just say that if Members have additional questions 
for the witnesses, they will be submitted to you in writing, 
and we would appreciate receiving your responses within a 2-
week period. Of course, all that will be made part of the 
record.
    And with that, the Subcommittee stands adjourned.
    [Whereupon, at 4:24 p.m., the Subcommittee was adjourned.]
    [Submission for the Record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
